           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



     UNIVERSITIES’ USE OF SOCIAL
   SECURITY NUMBERS AS STUDENT
      IDENTIFIERS IN REGION VI

     August 2005    A-06-05-15100




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                             SOCIAL SECURITY
MEMORANDUM

Date:   August 19, 2005                                                               Refer To:

To:     Ramona Schuenemeyer
        Regional Commissioner
         Dallas

From:   Inspector General

Subject: Universities’ Use of Social Security Numbers as Student Identifiers in Region VI
        (A-06-05-15100)

        OBJECTIVE
        Our objective was to assess universities’ use of Social Security numbers (SSN) as
        student identifiers and the potential risks associated with such use.

        BACKGROUND

        Millions of students enroll in educational institutions each year. To assist in this
        process, many colleges and universities use students’ SSNs as personal identifiers.
        The American Association of Collegiate Registrars and Admissions Officers found that,
        in response to a 2002 survey, half of member institutions used SSNs as the primary
        student identifier.1 Although no single Federal law regulates overall use and disclosure
        of SSNs by universities,2 the Privacy Act of 1974, the Family Educational Rights and
        Privacy Act (FERPA), and the Social Security Act, contain provisions that govern
        disclosure and use of SSNs. See Appendix A for more information on the specific
        provisions of these laws.

        We selected a sample of 10 universities consisting of 2 universities from each of
        5 States3 in the Dallas Region. At each university, we interviewed appropriate
        personnel and reviewed university policies and practices concerning the use of SSNs.
        Appendices B and C provide additional details regarding the scope and methodology of
        our review and a list of the universities we contacted. We are conducting a review in
        each of the Social Security Administration’s (SSA) 10 regions and will issue separate
        reports to each Regional Commissioner.

        1
         Academic Transcripts and Records: Survey of Current Practices, April 2002 Special Report, the
        American Association of Collegiate Registrars and Admissions Officers.
        2
            The term “universities” will be used to include both colleges and universities.
        3
            Arkansas, Louisiana, New Mexico, Oklahoma, and Texas.
Page 2 – Ramona Schuenemeyer


RESULTS OF REVIEW
All 10 universities selected for review in the Dallas Region used the SSN as their
primary student identifier. However, 7 of the 10 universities indicated they were
implementing a new system in 2005 to limit the use of the SSN as the primary student
identifier. Personnel at the remaining three universities informed us they also planned
to implement a new system: one in January 2006; one within 2 years; and one within
3-5 years. All five States within our region had taken steps to address identity theft or
limit the use and display of SSNs.

UNIVERSITIES’ USE OF SSNs

The universities used the SSN for admission applications, class registration, access to
computer systems, class rosters, grade or transcript reports, student identification (ID)
cards and student financial aid. During our review, we noted that 1 of the 10
universities displayed the full SSN on the face of the student ID card, and 1 displayed
the last 4 digits of the SSN. Both universities planned to change their system to use
another number in place of the SSN. The other eight universities did not use the SSN
on the front of their student ID cards. In addition, seven of the universities included the
SSN in a magnetic strip or bar code on the back of the student ID card, but all 10 had
plans to discontinue this practice when they implement their new systems.

All of the universities contacted originally used SSNs for various purposes because the
SSN was universally accepted as a standard form of identification; the SSN met Federal
reporting requirements for student financial aid; or State government required the SSN.
At the time of our review, 7 of the 10 universities used the SSN for on-line applications,
and 9 of the 10 universities used the SSN to post grades. However, the grades were
posted on-line, and the instructors were told not to post them publicly. All of the
universities expressed concern about the growing trend of identity theft and SSN
misuse. All 10 universities stated they used a variety of system security measures to
secure their on-line transactions, including personal identification numbers, passwords,
firewalls and encryption.

We also identified instances in which universities requested that prospective students
provide their SSNs on postcards. Universities routinely send postcards to be completed
by prospective students who have requested information about the university. These
postcards request name, address, graduation information, and the prospective student’s
SSN. Displaying such information on a postcard increases the risk of SSN misuse and
unnecessarily subjects the prospective student to the possibility of identity theft. At the
time of our review, 3 of the 10 universities requested the student’s SSN on information
request postcards. Of those universities, one placed “optional” next to the SSN request.
Below is an example of an information request postcard.
Page 3 – Ramona Schuenemeyer




STATES AND UNIVERSITIES LIMIT SSN USE

All five States in the Dallas region have current or pending legislation to address identity
theft or limit the use and display of SSNs. Additionally, all 10 of the universities
contacted reported taking steps or making plans to limit using SSNs as the primary
student identifier.

States’ Efforts to Limit SSN Use

Among the current or pending laws in the States:

•   Arkansas has a law that makes it a crime for an individual without consent, to obtain
    or record identifying information of another person that would assist in accessing the
    financial resources of that person. The law includes SSNs in its definition of
    “identifying information.” (A.C.A. § 5-37-227).

•   Louisiana has a law that prohibits the use of SSNs as personal identifiers for school
    employees. (La. R.S. 17:440).
Page 4 – Ramona Schuenemeyer


•   New Mexico has legislation pending that increases the penalty for identity theft for
    “…willfully obtaining, recording or transferring personal identifying information of
    another person without the authorization or consent of that person and with the
    intent to defraud that person or another.” (2005 Bill Text NM S.B. 260).

•   Oklahoma has a law that makes it a crime “…for any person to willfully and with
    fraudulent intent to obtain the name, address, social security number, date of
    birth…or any other personal identifying information of another person living or dead,
    with intent to use, sell, or allow any other person to use or sell such personal
    information to obtain or attempt to obtain money, credit, goods, property, or service
    in the name of the other person without the consent of that person.” (21 Okla. St. §
    15331.1).

•   Texas has a law that prohibits the printing of “…an individual’s social security
    number on a card or other device required to access a product or service…unless
    the individual has requested in writing such printing.” The law does not apply to
    “...the collection, use, or release of a social security number that is required by state
    or federal law…or the use of a social security number for internal verification or
    administrative purposes.” (Tex. Bus. & Com. Code § 35.58).


Universities’ Efforts to Limit SSN Use

All 10 universities we contacted reported taking steps or making plans to limit using
SSNs as the primary student identifier. All 10 universities gave students the option of
using another number as a personal identifier and addressed privacy of student records
via FERPA or through discussion in university catalogs or on websites. One university
had a statement on the admission application regarding the State’s Public Information
Act, and another university had information on its website explaining the new student
identification numbering system.

While conducting our review, we also noted articles in student publications outlining
concerns and possible solutions to identity theft and an article at another university
entitled Old ID Cards hold SSN, new card effective mid – March. This is an example of
the university taking action and informing students, faculty and staff about their new
student identifier system.

Overall, we are encouraged that officials from the universities we contacted shared our
concerns and stated their universities had taken, or were planning to take, steps to
reduce using the SSN as the primary identifier. Most significantly, 7 of the 10 planned
to implement a new student identifier system with implementation dates ranging from
March to October 2005. The new systems will limit the use of SSNs as the primary
student identifier.
Page 5 – Ramona Schuenemeyer


POTENTIAL RISKS ASSOCIATED WITH USING SSNs AS STUDENT IDENTIFIERS

Universities’ use of SSNs as primary identification numbers entails certain risks,
including potential identity theft and fraud. Each time an individual divulges his or her
SSN, he or she is exposed to having the number stolen and used for unintended
purposes. The exposure to identity theft increases when the SSN is the student
identification number. It is important for universities, as well as individuals, to help
prevent identity theft and fraud to the extent possible by reducing this exposure. The
following examples illustrate students’ risk of exposure to identity theft and fraud.

•   A university professor in Washington was indicted on 33 counts of mail fraud in a
    scam using students’ SSNs. The professor allegedly accessed the university’s
    records system and used students’ information to obtain new SSN cards by posing
    as a parent. The professor then allegedly used the SSNs to obtain credit cards and
    birth certificates.

•   California authorities arrested a man suspected of stealing the names and SSNs of
    150 college students and using that information to obtain credit cards and charge
    over $200,000 in the students’ names.

•   A New York school notified about 1,800 students that their SSNs and other personal
    information had been posted on a university website. The university shut down the
    website.

•   A student at a Texas university was indicted for hacking into the school’s computer
    network and downloading the names and SSNs of over 37,000 students, faculty, and
    alumni.

•   An individual discovered a computer printout in a trash bin near a Pennsylvania
    university listing SSNs and other personal data for hundreds of students.
Page 6 – Ramona Schuenemeyer


CONCLUSION AND RECOMMENDATIONS
All 10 universities we contacted in the Dallas Region used the SSN as the primary
student identifier, but 7 indicated they were implementing a new system in 2005. The
remaining three planned to implement a new system after 2005. While the universities
continue to use the SSN as the primary student identifier, there is a continuing inherent
risk that personal information could be compromised and potentially misused. While we
recognize that SSA cannot prohibit universities from using SSNs as student identifiers,
we believe SSA has a responsibility to reduce potential threats to SSN integrity by
encouraging universities to limit SSN collection and use. We also recognize the
challenge of educating such a large number of educational institutions. However, given
the potential threats to SSN integrity, such a challenge should not discourage SSA from
taking steps to safeguard SSNs. Accordingly, we recommend that SSA:

1. Coordinate with universities and State/regional educational associations to educate
   the university community about the potential risks associated with using SSNs as
   student identifiers.

2. Encourage universities to limit their collection and use of SSNs.

3. Promote the best practices of educational institutions that no longer use SSNs as
   student identifiers.

AGENCY COMMENTS
In commenting on our draft report, SSA agreed with our recommendations. The
Regional Commissioner also suggested that SSA’s Central Office establish a dialogue
with national educational organizations to promote the best practices of educational
institutions that do not use the SSN as a student identifier.

OIG RESPONSE

Establishing a dialogue with national educational organizations would provide SSA an
effective method of communicating the best practices of educational institutions that do
not use the SSN as a student identifier. Accordingly, we encourage the Regional
Commissioner to work with the Central Office to open these lines of communication.
Page 7 – Ramona Schuenemeyer


OTHER MATTER
While conducting our survey work, we identified several instructors’ resumes that
contained SSNs, dates of birth, birthplaces, home telephone numbers, and addresses
on a website for a university in Texas. Because of the growing prevalence of identity
theft, we believe that, when SSA contacts the universities and staff, it should remind
them to (1) issue periodic reminders to students and faculty about safeguarding their
SSNs and (2) conduct periodic reviews to ensure SSNs are not inadvertently placed on
their websites.




                                                  S
                                                  Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Federal Laws that Govern Disclosure and Use of the Social Security
             Number

APPENDIX B – Scope and Methodology

APPENDIX C – Educational Institutions Contacted

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                                    Appendix A

Federal Laws that Govern Disclosure and Use of the
Social Security Number
The following Federal laws establish a general framework for disclosing and using the
Social Security number (SSN).

The Privacy Act of 1974 (5 U.S.C. § 552a, Pub. L. No. 93-579, §§ 7(a) and 7(b))

The Privacy Act of 1974 provides that it is unlawful for a State government agency to
deny any person a right, benefit, or privilege provided by law based on the individual’s
refusal to disclose his/her SSN, unless such disclosure was required to verify the
individual’s identity under a statute or regulation in effect before January 1, 1975.
Further, under Section 7(b), a State agency requesting that an individual disclose
his/her SSN must inform the individual whether the disclosure is voluntary or
mandatory, by what statutory or other authority the SSN is solicited, and what uses will
be made of the SSN.

The Family Educational Rights and Privacy Act (20 U.S.C. § 1232g; 34 C.F.R. Part 99)

The Family Educational Rights and Privacy Act (FERPA) protects the privacy of student
education records. FERPA applies to those universities that receive funds under an
applicable program of the U.S. Department of Education. Under FERPA, an
educational institution must have written permission from the parent or eligible student
to release any personally identifiable information (which includes SSNs) from a
student’s education record.1 FERPA does, however, provide certain exceptions in
which a university is allowed to disclose records without consent. These exceptions
include disclosure without consent to university personnel internally who have a
legitimate educational interest in the information, to officials of institutions where the
student is seeking to enroll/transfer, to parties to whom the student is applying for
financial aid, to the parent of a dependent student, to appropriate parties in compliance
with a judicial order or lawfully issued subpoena, or to health care providers in the event
of a health or safety emergency.




1
  FERPA gives parents certain rights with respect to their children’s education records. These rights
transfer to the child when the child reaches the age of 18 or attends an institution of postsecondary
education. Children that have been transferred these rights are referred to as “eligible students.”

                                                    A-1
The Social Security Act

The Social Security Act provides that “Social security account numbers and related
records that are obtained or maintained by authorized persons pursuant to any
provision of law, enacted on or after October 1, 1990, shall be confidential, and no
authorized person shall disclose any such social security account number or related
record.” (42 U.S.C. § 405(c)(2)(C)(viii)). The Social Security Act also provides that
“[w]hoever discloses, uses, or compels the disclosure of the social security number of
any person in violation of the laws of the United States; shall be guilty of a felony…”
(42 U.S.C. § 408(a)(8)).




                                         A-2
                                                                        Appendix B

Scope and Methodology
We are conducting a review in each of the Social Security Administration’s regions and
will issue separate reports to each Regional Commissioner.

To accomplish our objective, we:

•   reviewed applicable laws and regulations;

•   reviewed selected studies, articles and reports regarding universities’ use of Social
    Security numbers (SSN) as student identifiers;

•   selected 2 universities from each of the 5 States in the Dallas Region;

•   reviewed Internet websites for all 10 universities selected for our review;

•   visited 7 universities and conducted telephone interviews at 3 others to learn more
    about their policies and practices for using SSNs as student identifiers; and

•   interviewed selected university personnel responsible for student
    admissions/registrations.

Our review of internal controls was limited to gaining an understanding of universities’
policies over the collection, protection and use/disclosure of SSNs. The Social Security
Administration office responsible for SSN issues was the Office of the Deputy
Commissioner for Operations. We conducted our audit from January through March
2005 in accordance with generally accepted government auditing standards.
                                                                                 Appendix C

Educational Institutions Contacted
We interviewed personnel at 10 educational institutions in Region VI. The following
table shows the names and locations of these universities as well as their total student
enrollments.


                          University                            Location                Student
                                                                                       Enrollment
           Louisiana State University and Agriculture
    1      and Mechanical College                       Baton Rouge, Louisiana            30,211

    2      University of Oklahoma                       Norman, Oklahoma                  24,946

    3      University of New Mexico                     Albuquerque, New Mexico           24,217

    4      Collin County Community College              Plano, Texas                      15,985

    5      Texas Woman’s University                     Denton, Texas                     10,714

    6      Northeastern State University                Tahlequah, Oklahoma                9,454

    7      University of Arkansas at Little Rock        Little Rock, Arkansas              9,330

    8      Arkansas Tech University                     Russellville, Arkansas             6,359

    9      Louisiana State University in Shreveport     Shreveport, Louisiana              4,316

   10      Santa Fe Community College                   Santa Fe, New Mexico               1,450


Source: We determined student enrollment by reviewing university websites or the following website:
www.collegeboard.com
                                                                       Appendix D

Agency Comments
Date:    August 2, 2005

To:      Inspector General

From:    Regional Commissioner
         Dallas

Subject: Review of Universities’ Use of Social Security Numbers as Student Identifiers
in Region VI, Audit No. 22005026

We appreciate the opportunity to review and comment on the draft report “Universities’
Use of Social Security Numbers as Student Identifiers” (A-06-05-15100). We have the
following comments on the recommendations:

Recommendation 1:
Coordinate with universities and State/regional educational associations to
educate the university community about the potential risks associated with using
SSNs as student identifiers.

Comments: As our managers and public affairs specialists continue their regular and
ongoing contacts at colleges and universities, we will ask them to stress the potential
risks associated with using SSNs as student identifiers. We would appreciate any
State/regional educational association names and contact information that OIG may
have identified during this audit to ensure that all appropriate contacts are made.

Recommendation 2:
Encourage universities to limit their collection and use of SSNs.

Comments: As our managers and public affairs specialists continue their regular and
ongoing contacts with educational institutions, we will ask that they encourage them to
limit the collection and use of SSNs. We will also suggest they consider: (1) issuing
periodic reminders to students and faculty about safeguarding their SSNs; and
(2) conducting periodic reviews to ensure SSNs are not inadvertently placed on their
websites.

We will specifically contact the university in Texas identified during your study as having
a website where several instructors’ resumes with identifying information and SSNs
were found, and alert the university to the risks of such practices.




                                            D-1
Recommendation 3:
Promote the best practices of educational institutions that no longer use SSNs as
student identifiers.

Comments: We agree that coordination and promotion of educational institutions’ best
practices would be in our best interest. However, we believe that such efforts would be
better served at the national level with SSA Central Office working with the national
educational organizations to set up this dialogue and/or website.

If members of your staff have questions, please have them call Vickie Higgins at 214-
76-2165 in Management and Operations Support, Center for Programs Support.


/s/

Ramona Schuenemeyer




                                        D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Paul Davila, Director, (214) 767-6317

   Paul Wood, Audit Manager, (214) 767-0058

Acknowledgments

In addition to those named above:

   Billy Mize, Senior Auditor




For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-05-15100.
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
